<html>
<title> - ORGANIZATIONAL MEETING FOR THE 116TH CONGRESS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


             ORGANIZATIONAL MEETING FOR THE 116TH CONGRESS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                            FEBRUARY 6, 2019

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                                             

            Small Business Committee Document Number 116-001
             Available via the GPO Website: www.govinfo.gov
                   
                   
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
34-740                       WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e7809788a7849294938f828b97c984888ac9">[email&#160;protected]</a>                    
                   
                   
                   
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          ANDY KIM, New Jersey
                         SHARICE DAVIDS, Kansas
                          JARED GOLDEN, Maine
                          JASON CROW, Colorado
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                                 VACANT
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                        TRENT KELLY, Mississippi
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                            
                            
                            
                            C O N T E N T S

                           OPENING STATEMENT

                                                                   Page
Hon. Nydia Velazquez.............................................     1
Hon. Steve Chabot................................................     3

                                APPENDIX

Additional Material for the Record:
    Rules and Procedures.........................................     9
    Oversight Plan of the Committee on Small Business for the One 
      Hundred Sixteenth Congress.................................    23

 
                         ORGANIZATIONAL MEETING

                              ----------                              


                      WEDNESDAY, FEBRUARY 6, 2019

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:34 a.m., in Room 
2360, Rayburn House Office Building. Hon. Nydia Velazquez 
[chairwoman of the Committee] presiding.
    Present: Representatives Velazquez, Finkenauer, Kim, 
Davids, Golden, Crow, Chu, Veasey, Evans, Espaillat, Schneider, 
Delgado, Chabot, Radewagen, Kelly, Balderson, Hern, Hagedorn, 
Stauber, Burchett, Spano, and Joyce.
    Chairwoman VELAZQUEZ. Good morning, everyone.
    I call the Small Business Committee Organizational Meeting 
to order.
    I want to first welcome all returning and new Members. 
Before we introduce new Members, I want to recognize Ranking 
Member Steve Chabot, who has served on this Committee with me 
for so many years now. We both know what it is like being in 
the majority and the minority, and together we have proven just 
what bipartisanship looks like. Just as Mr. Chabot has done in 
his tenure as Chairman, I intend to continue this Committee's 
history of working together to foster a healthy business 
climate for America's entrepreneurs. I look forward to working 
with you and other Members of the Committee to accomplish this 
goal.
    Small businesses continue to make unprecedented 
contributions to our economy. They create nearly two-thirds of 
net new jobs and account for nearly half of all private sector 
employment. But, they need our help as they are facing 
challenges accessing capital, identifying a skilled workforce, 
and complying with an overly complex Tax Code. As we move 
forward, it is our duty to make sure they are given all the 
resources they need to prosper.
    But to do so it is important to address these issues in a 
constructive and inclusive manner. My belief has always been 
that there is not a Republican or Democratic approach to small 
businesses. Good ideas come from both sides of the aisle and we 
need to encourage that, which is why I will make it a priority 
to work in a bipartisan fashion.
    During the last 2 years we did just that and accomplished a 
great deal together. Small businesses deserve our partnership. 
We have a diverse Committee and that is our strength because we 
will ensure our work benefits all entrepreneurs, no matter 
their location, industry, or background.
    I look forward to collaborating with the Ranking Member and 
with all Committee Members this Congress.
    Now, let me take this opportunity to introduce the Members 
on my side. There are a few new Democratic Members of the 
Committee.
    Congressman Marc Veasey, now in his fourth term, previously 
served in the Texas House of Representatives, and has been 
dedicated to addressing the challenges of many middle-class 
Americans. We are excited to have his experience.
    The rest of our new Members are from our ambitious crop of 
freshmen.
    Abby Finkenauer served in the Iowa House of Representatives 
before her election to Congress. She has a passion for rural 
economic development and will be a true asset to our Committee.
    Andy Kim brings extensive foreign affairs experience to 
Congress after serving at the Pentagon, the State Department, 
the White House National Security Council, and in Afghanistan 
as a civilian advisor.
    Sharice Davids from Kansas brings her knowledge as a 
businesswoman, lawyer, and professional mixed martial artist. 
Do not mess around with her.
    Jared Golden is a veteran of the U.S. Marine Corps, and in 
2014, he was elected to the Maine House of Representatives 
where he served as the Democratic Assistant Majority Leader in 
2016.
    Jason Crow is a former Army Ranger and a lawyer who has 
served multiple tours overseas and earned a Bronze Star for his 
combat actions. As the son of small business owners, he 
understands the hard work our nation's job creators put into 
creating jobs and growing our economy. Thank you for your 
service.
    Antonio Delgado hails from my home state of New York. He is 
a Rhodes Scholar with diverse professional experience that 
includes working in the music industry and as a lawyer where he 
dedicated significant pro bono work fighting for criminal 
justice reform.
    Chrissy Houlahan, like many of our colleagues, also served 
our country before being elected to Congress. She served in the 
Air Force, but also brings her background as an engineer and 
entrepreneur through her work here on the Committee.
    We welcome you all to Congress and are excited you will be 
serving on the House Small Business Committee.
    I would also like to welcome back the Members who served on 
the Committee in the 115th Congress.
    Judy Chu is in her sixth term in Congress and fifth with 
the Committee. She has a Ph.D. in psychology and also served in 
the California State Assembly.
    Joining us from Pennsylvania is Dwight Evans, who 
previously served as the Ranking Member of our Subcommittee on 
Economic Growth, Tax, and Capital Access. We are very lucky to 
have him back in his new position as the Committee's Vice 
Chair. His dedication to small business issues is clear as he 
has served for over 35 years in the Pennsylvania House of 
Representatives before coming to Congress.
    Mr. Schneider is in his third term serving on this 
Committee where his over 2 decades in business and management 
consulting has helped him address the needs of small businesses 
as they hire and grow their businesses.
    Last, but not least, Adriano Espaillat, also from the great 
state of New York, is rejoining the Committee for his second 
term. Originally born in the Dominican Republic, he is the 
first Dominican American to serve in Congress.
    We are very fortunate to have you all back on this 
Committee.
    I now yield to the Ranking Member, Mr. Chabot, for his 
opening statement and to introduce his new Members.
    Mr. CHABOT. Thank you, Madam Chairwoman. And as we begin I 
want to mention, as you did, that Chairwoman Velazquez and I 
have served on this Committee for over 20 years together. 
Twenty-three to be exact, but who is counting? And we have both 
held the position of Chair and Ranking Member, depending on 
which party controlled the house. We have worked together in a 
very bipartisan manner at nearly every step of the way and I 
want to thank her for continuing this tradition, at least so 
far in the 116th Congress, although we are not very far in it 
yet but I am sure we are going to continue those bipartisan 
efforts.
    For new Members of Congress, I am sure that a lot of you 
have seen Committee hearings on TV or on the Internet that have 
been filled with bitter partisanship and that could give a 
preconceived notion of how things work around here but let me 
assure you that while you may find that in other Committees 
that you sit on, you will not find it here, at least not 
usually. Of course, there will be philosophical differences. We 
have real differences on health care and taxes and a whole 
range of issues, but on this Committee we do truly work 
together across the aisle for the betterment of America's small 
businesses.
    We do this because small businesses are the key to our 
economy. We must ensure that small companies are healthy so 
they can create jobs and continue to grow. Policies that expand 
capital access, create new incentives, and spur investment will 
continue that economic expansion.
    Small businesses employ over half of America's workers and 
create about 70 percent of new jobs in the American economy. 
They represent approximately 99 percent. So 99 out of 100 
businesses in America are by definition small businesses. They 
comprise about half of the nation's private sector payroll and 
produce about half of our private non-farm gross domestic 
product.
    The past 2 years have brought great news for small firms. 
Optimism continues to push all-time highs. Small firms are 
investing more capital into their businesses. Wage growth for 
employees at small firms continues to grow and profits are up. 
But as with everything, we can always fine tune the engine to 
get a better performance.
    I look forward to working with you Madam Chairwoman and the 
other Members of the Committee on both sides of the aisle over 
the next 2 years.
    Now, I would like to introduce our new Members, the new 
Republican Members of the Small Business Committee.
    I will begin with Representative Kevin Hern of Oklahoma, 
who started his first small business in 1985 specializing in 
computer and software applications. Then he started saving to 
purchase his first McDonald's restaurant. Starting several 
small business ventures along the way, writing computer 
programs to automate tasks for other businesses, real estate, 
and even hog farming. We welcome him here.
    Representative Jim Hagedorn of Minnesota started his career 
as a congressional staffer for Minnesota congressman Arlan 
Strangeland here in Washington, D.C. Later, he worked as 
director for legislative and public affairs for the Financial 
Management Service, the U.S. Department of Treasury, and in the 
Congressional Affairs Shop for the Bureau of Engraving and 
Printing.
    Representative Pete Stauber of Minnesota began his career 
as a police officer in the early 1990s. He served both as the 
president of the Law Enforcement Labor Services Union, Local 
363, and as an area commander with the Duluth Police 
Department. He later became a city councilman and county 
commissioner, and he is a heck of a hockey player as well, both 
at the college level, winning national championships and the 
pros as well.
    Representative Tim Burchett of Tennessee founded a small 
business early in his life. He then dedicated himself to public 
service, serving in the Tennessee State House, Senate, and most 
recently as mayor of Knox County, Tennessee. And we welcome him 
as well.
    Representative Ross Spano of Florida spent most of his 
career as a shareholder of his own law practice, representing 
individuals and small businesses in Hillsborough County. In 
2012, he successfully won a seat in Florida's House of 
Representatives where he served for 3 terms.
    Representative John Joyce of Pennsylvania, is a physician 
who began his medical career working with the Navy at 
Portsmouth Naval Hospital in Virginia during Operations Desert 
Shield and Desert Storm. He returned to his hometown to open 
his own practice and has been caring for Central Pennsylvanians 
ever since.
    We welcome all our new Members, and this Committee 
considers many issues that are related to our nation's economy, 
so I know the knowledge and expertise of our new Members will 
be extremely helpful. We welcome all of you to the Committee.
    I also want to recognize the Republican Members who are 
returning to the Committee.
    Amata Radewagen of American Samoa, who will serve as our 
Vice Ranking Member for the 116th Congress. And Trent Kelly of 
Mississippi and Troy Balderson of Ohio. Each of them has made 
significant contributions to our Committee's consideration of 
policy. And I know that their experience will be invaluable as 
we contemplate the critical issues facing our nation's small 
businesses.
    So Madam Chairwoman, I look forward to another 2 productive 
years working with you and working on policies that will help 
America's entrepreneurs succeed.
    And I yield back the balance of my time.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back. 
And I look forward to the discussion and debates that I know 
will transpire over the next 2 years.
    And now we will move to the rules package. With today's 
rules package, I believe we are making it clear to the small 
business community that we are committed to working together 
and advocating on their behalf.
    Pursuant to Clause 2(a) of House Rule 11, today's first 
order of business is to adopt the Committee rules for the 116th 
Congress. The adoption of the rules is central to the work we 
do and the tone we set in this body. Perhaps most importantly 
they must ensure that all points of view are considered and 
that the minority retains their full rights to be heard. In 
this context, the rules remain largely unchanged from the 115th 
Congress. The rules have been modified slightly to conform with 
House Rules adopted last month. That change clarifies that 
weekends and holidays when the House is not in session are not 
counted for purposes of the 3 days rule for markups. Hearings 
are one of our best platforms and offer tremendous insight and 
we welcome non-Committee Members to participate. Our rules now 
make it clear that they are welcome to attend our hearings with 
appropriate notice and to question witnesses with the approval 
of the Chair and Ranking Member. However, they cannot be 
counted for purposes of a quorum or to participate in any vote.
    The rules package also institutes a longstanding practice 
of the Committee to extend the 5 minute oral testimony of a 
witness as long as the Chair and Ranking Member agree.
    Finally, the rules rename three of our Subcommittees which 
reflect the changing nature of small business challenges. The 
new Subcommittees are the Subcommittee on Contracting and 
Infrastructure, formerly Contracting and Workforce; the 
Subcommittee on Innovation and Workforce Development, formerly 
Health and Technology; and the Subcommittee on Rural 
Development, Agriculture, Trade, and Entrepreneurship, formerly 
Agriculture, Energy, and Trade.
    This Committee needs to run in a cooperative manner. I 
believe the best way to do that is to make sure both sides have 
an equal voice and are treated in a way that is fair. Through 
adoption of these rules we will continue this practice.
    I would like to thank the staff on both sides for working 
closely on the rules package. Thank you.
    At this point I would like to yield to Ranking Member 
Chabot for any comments he may have on the rules.
    Mr. CHABOT. Thank you, Madam Chairwoman. I want to thank 
you and your staff for working so collaboratively on the 
Committee rules package. This package provides continued 
protection for the rights of the minority, now that we are in 
the minority, and we had those same protections for my 
colleagues on the other side of the aisle when they were in the 
minority. And the opportunity for minorities' input into the 
operation of the Committee.
    I want to take a moment to highlight just several rules, 
and you have already mentioned these. But the first, the 
minority will continue to have control of fully a third of the 
Committee's budget. This rule goes a long way toward 
maintaining the collegial tone of the Committee.
    Second, witnesses, as you mentioned, will limit their oral 
presentation to 5 minutes of written testimony. They can 
summarize it, of course, which has been the Committee's rule in 
the past. In the new rules the Chairwoman, in consultation with 
the Ranking Member, may now extend that time if we think that 
that would be helpful for the Committee.
    Finally, Members who are not Members of the Committee on 
Small Business occasionally join the Committee to participate 
in a hearing. These Members are not permitted to vote for the 
purpose of establishing a quorum or on any matter, but in the 
proposed rules may question witnesses if permitted by the Chair 
in consultation with the Ranking Member. We support those 
efforts and those changes.
    Again, I appreciate the Chairwoman and her staff for 
working closely with the minority in bringing this rules 
package forward. And I urge my colleagues to support it.
    And I yield back the balance of my time.
    Chairwoman VELAZQUEZ. Thank you, Mr. Chabot.
    Are there any Members that wish to be recognized on the 
rules?
    The Committee now moves to consideration of the rules 
package. The clerk will read the title of the document.
    The CLERK. Rules and Procedures Adopted by the Committee.
    Chairwoman VELAZQUEZ. I ask unanimous consent that the 
rules package be considered as read and open for amendment in 
its entirety.
    Does any Member seek recognition for the purpose of 
offering an amendment?
    Seeing none, the question is on adopting the rules.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it and the 
proposed rules are adopted and staff is authorized to make 
technical and grammatical changes.
    Pursuant to House Rules, the rules adopted by the Committee 
on Small Business for the 116th Congress will be published in 
the congressional record and made available to the public on 
the Committee's website.
    Now, we will approve our Subcommittee Chairs and Ranking 
Members. The Full Committee Vice Chair will be Representative 
Dwight Evans, who was elected by a vote of the Democratic 
Caucus.
    Representative Jared Golden will be the Chair of the 
Subcommittee on Contracting and Infrastructure.
    Representative Andy Kim will be Chair of the Subcommittee 
on Economic Growth, Tax, and Capital Access.
    Representative Jason Crow will be the Chair of the 
Subcommittee on Innovation and Workforce Development.
    Representative Judy Chu will be Chair of the Subcommittee 
on Investigations, Oversight, and Regulations.
    And Representative Abby Finkenauer will be the Chair on the 
Subcommittee on Rural Development, Agriculture, Trade, and 
Entrepreneurship.
    I now yield to the Ranking Member, Mr. Chabot, for any 
remarks that he may have to introduce the Subcommittee Ranking 
Members.
    Mr. CHABOT. Thank you, Madam Chairwoman.
    I will now introduce the Subcommittee Ranking Members for 
the republican side of the Committee.
    Representative John Joyce--I would not mind if the Members 
could kind of just raise their hand so everybody knows who they 
are.
    Representative John Joyce from Pennsylvania will be the 
Ranking Member for the Subcommittee on Rural Development, 
Agriculture, Trade, and Entrepreneurship.
    Representative Troy Balderson of Ohio will be the Ranking 
Member for the Subcommittee on Innovation and Workforce 
Development.
    Representative Kevin Hern from Oklahoma will be the Ranking 
Member for the Subcommittee on Economic Growth, Tax, and 
Capital Access.
    Representative Ross Spano from Florida will be the Ranking 
Member for the Subcommittee on Investigations, Oversight, and 
Regulations.
    And Representative Pete Stauber from Minnesota will be the 
Ranking Member for the Subcommittee on Contracting and 
Infrastructure.
    We have an excellent crop of newcomers on the Committee on 
our side, and I know that the folks on the other side of the 
aisle are pretty good, too. And these folks will be going along 
with the really fantastic Members that are already on the 
Committee. So we appreciate them being here.
    And I look forward to working with our colleagues on the 
other side of the aisle in the 116th Congress, and as we have 
already indicated, we actually accomplish a lot in a bipartisan 
manner on this Committee and we appreciate that.
    And I now yield back.
    Chairwoman VELAZQUEZ. Thank you.
    I move that the list of Subcommittee Chairs and Ranking 
Members and Vice Chair as set forth in the roster be approved.
    All those in favor say aye.
    Those opposed say no.
    In the opinion of the Chair the ayes have it and the Chairs 
and Ranking Members are appointed.
    This concludes the order of business for today's meeting.
    Does any Member seek recognition for debate before we 
conclude?
    If not, without--yes?
    Mr. BURCHETT. I am Tim Burchett. I am a new Member. I am 
not sure if I am breaking protocol here but I saw on the news 
where you stepped up and did the right thing. I saw in your 
district where there was, I believe a jail without heat. And as 
a county mayor, I know that a lot of people in our jails are 
not guilty and a lot of people in Knox County maybe do not 
speak the language or are just caught in a bad situation 
financially, and I wanted to thank you for looking at the least 
amongst us. I cannot imagine anything more horrible than being 
in a jail or knowing that your loved one is in there and did 
not have heat or anything there in horrible weather conditions. 
So I wanted to thank you.
    Chairwoman VELAZQUEZ. Thank you so much.
    Mr. BURCHETT. And if that costs me votes in Knox County, so 
be it. But thank you.
    Chairwoman VELAZQUEZ. Thank you so much.
    Mr. CHABOT. My guess is it will not.
    Chairwoman VELAZQUEZ. I appreciate it. Really appreciate 
it.
    Any other Member who wishes to make any comment or ask any 
questions?
    If not, without objection, this meeting of the Committee on 
Small Business stands adjourned and the Committee will stand in 
recess for a few moments to prepare for the Committee hearing.
    Thank you. Thank you all.
    [Whereupon, at 10:56 a.m., the Committee was adjourned.]
                            A P P E N D I X


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
